Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    ABERRANT BILLING IN 

     SOUTH FLORIDA FOR 

BENEFICIARIES WITH HIV/AIDS





                    Daniel R. Levinson

                     Inspector General 


                     September 2007

                     OEI-09-07-00030

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                         S U M M A R Y


                  OBJECTIVE
                  1.	    To identify claims patterns associated with HIV/AIDS infusion
                         therapy that may indicate fraudulent or abusive activity in three
                         South Florida counties.

                  2.	    To assess the effectiveness of past and current efforts to control
                         inappropriate payments to infusion therapy providers in three
                         South Florida counties.


                  BACKGROUND
                  In June 2003, the program safeguard contractor alerted the Centers for
                  Medicare & Medicaid Services (CMS) that providers in three South
                  Florida counties (Miami-Dade, Broward, and Palm Beach) were billing
                  aberrantly for infusion therapy services for beneficiaries with
                  HIV/AIDS. Related investigations found that many of the services
                  billed by these aberrant providers were not medically necessary or
                  feasible. In May 2004, CMS issued a National Medicare Fraud Alert
                  describing the “infusion therapy scam.” By 2005, the three South
                  Florida counties accounted for 72 percent of submitted charges for
                  beneficiaries with HIV/AIDS nationwide, though only 8 percent of such
                  beneficiaries lived there. Most of these charges were for drugs used in
                  infusion therapy.

                  CMS is responsible for paying Medicare claims and ensuring the
                  integrity of those payments. The agency uses contractors to execute
                  those responsibilities. CMS and the contractors have a number of tools
                  available to control aberrant billing, including payment suspensions and
                  preenrollment provider site visits.

                  We used Medicare Part B National Claims History data from 2006 to
                  analyze beneficiary and provider claims patterns in South Florida. In
                  addition, we interviewed staff from CMS and its contractors and
                  reviewed documents related to infusion fraud to assess the efforts to
                  control aberrant billing.


                  FINDINGS
                  In the last half of 2006, three South Florida counties accounted for
                  half the total amount, and 79 percent of the amount for drugs, billed
                  nationally for Medicare beneficiaries with HIV/AIDS. Most of the
                  charges originating in these counties were for nonoral drugs; drug


OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   i
E X E C U T I V E              S U          M M A R Y


                   claims represented just 16 percent of the submitted charges in other
                   geographic areas. Aberrant claims patterns differentiated South
                   Florida providers and beneficiaries from those in the rest of the country.
                   Other metropolitan areas exhibit patterns of billing similar to South
                   Florida but to a lesser extent. CMS and its contractors have identified
                   aberrant billers of infusion therapy outside of South Florida. Our data
                   analysis shows that some metropolitan areas in other geographic
                   regions have patterns of billing for beneficiaries with HIV/AIDS that are
                   somewhat similar to those seen in South Florida.
                   CMS has had limited success in controlling the aberrant billing
                   practices of South Florida infusion therapy providers. CMS and its
                   contractors have used multiple approaches, but none has proven effective
                   over time. The most common tools include payment suspensions,
                   revocations, and claims-processing edits. CMS has taken limited action
                   to strengthen the enrollment process for new providers.


                   RECOMMENDATIONS
                   CMS has had limited success controlling aberrant billing by infusion
                   clinics in South Florida. Therefore, we recommend that CMS:
                   Mandate site visits for certain providers in high-risk jurisdictions.
                   Site visits are essential in high-risk areas to confirm that providers
                   have physical addresses and report accurate information in their
                   applications.
                   Afford contractors more time to review new applications from
                   certain providers in high-risk jurisdictions. Contractor standards
                   require that 80 percent of new applications be processed within 60 days
                   of receipt. CMS should set alternative standards in high-risk
                   jurisdictions for certain provider types and/or geographic areas that are
                   vulnerable to fraud.
                   Modify the Statement of Work for the jurisdiction that includes
                   South Florida to require enhanced activities to fight fraud and
                   abuse. CMS intends to release the Statement of Work for the Medicare
                   Administrative Contractor for Jurisdiction 9, which includes Florida,
                   Puerto Rico, and the U.S. Virgin Islands, later this year. The agency
                   should require and fund the new contractor to conduct enhanced
                   provider enrollment, data analysis, and claims-editing activities in the
                   portion of this area identified as high-risk.



 OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   ii
E X E C U T I V E              S U          M M A R Y


                   Require extensive review of all reassignments in high-risk areas to
                   confirm that they are legitimate. To minimize the chances that a
                   legitimate provider is associated with a fraudulent one, CMS should
                   take steps to ensure that all reassignments in high-risk areas are
                   legitimate and fund more extensive review of all new and existing
                   reassignments in South Florida as well as other high-risk areas.
                   Strengthen revocations to prevent further fraud and abuse. CMS
                   should consider shortening the 30-day notice period for revocations. In
                   addition, CMS should require prepayment review on all claims from
                   providers that have effective or pending revocations.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally concurred with our recommendations and stated that
                   our analysis will be useful to its continued efforts to prevent fraudulent
                   payments for infusion therapy. CMS noted that our recommendations
                   to mandate site visits and afford contractors more time to review new
                   applications in high-risk jurisdictions have been incorporated into a new
                   demonstration project.

                   CMS stated that our recommendations demonstrate that CMS’s current
                   actions are working. CMS also stated that the decline in Medicare
                   payments in Florida from 2004 to 2006, despite increased amounts
                   billed, demonstrates the effectiveness of corrective actions. However,
                   we find that the continued aberrant billing and payment patterns
                   documented in our report demonstrate the need for improved provider
                   enrollment controls to prevent the entry of unqualified providers into
                   the Medicare program. CMS acknowledged the need for improvement
                   in the provider enrollment process and described recent actions it has
                   taken to strengthen this process.

                   CMS’s positive response to our recommendations, including its
                   initiation of the new demonstration project, indicates that the agency is
                   now moving toward strategies that should more effectively protect the
                   integrity of Medicare payments in South Florida.




 OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    Aberrant South Florida claims patterns . . . . . . . . . . . . . . . . . . . . 12 


                    Aberrations in other geographic areas . . . . . . . . . . . . . . . . . . . . . . 15 


                    Limited success in controlling billing. . . . . . . . . . . . . . . . . . . . . . . 16 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                    A: Detailed Methodology for Table 3 . . . . . . . . . . . . . . . . . . . . . . . 29 


                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 

Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1.	    To identify claims patterns associated with HIV/AIDS infusion
                         therapy that may indicate fraudulent or abusive activity in
                         three South Florida counties.

                  2.	    To assess the effectiveness of past and current efforts to control
                         inappropriate payments to infusion therapy providers in three
                         South Florida counties.


                  BACKGROUND
                  Medicare Spending for Beneficiaries With HIV/AIDS
                  Based on our analysis, Medicare paid approximately $1 billion in
                  2005 for services for beneficiaries with a diagnosis of HIV or AIDS.
                  Claims for nonoral drugs1 accounted for $610 million of this amount,
                  while claims for other services, primarily evaluation and management
                  services, accounted for the remainder. Together, two codes generated
                  about one-third of the reimbursement for drugs: J9310 (Rituximab,
                  100 milligrams) and J2353 (Ocreotide, depot form, 1 milligram).
                  Medicare paid approximately $100 million for each of these codes in
                  2005.

                  In 2005, about 8 percent of Medicare beneficiaries with HIV/AIDS lived
                  in three South Florida counties (Miami-Dade, Broward, and Palm
                  Beach), but 72 percent of submitted charges for beneficiaries with
                  HIV/AIDS appeared on claims originating there. Providers in the three
                  counties submitted bills totaling $2.5 billion to Medicare (of which
                  Medicare paid $653 million) on behalf of beneficiaries with HIV/AIDS—
                  more than twice the $978 million submitted ($311 million paid) by
                  providers in all other areas of the country combined.

                  As shown in Figure 1, most of the claims in South Florida were for
                  nonoral drugs. South Florida providers submitted bills totaling more
                  than $2.2 billion ($568 million paid) for nonoral drugs for beneficiaries
                  with HIV/AIDS in 2005, about 22 times the $100 million submitted
                  ($42 million paid) for such claims in the rest of the country.



                    1 As identified in the “Current Procedural Terminology” (2006 edition) or “Healthcare
                  Common Procedure Coding System” (2006 edition).




OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                 1
    I N T R O D            U C T                 I O N 




         FIGURE 1
Submitted charges
  for beneficiaries
                                        $2,500                Other Services
   with HIV/AIDS,                                                 $258
       by location
                                        $2,000
                             Millions

                                        $1,500
                                                                 Drugs
                                                                 $2,210
                                        $1,000

                                                                                                Other Services
                                                                                                    $878
                                          $500
                                                                                        Drugs
                                                                                        $100
                                            $0
                                                           South Florida                    Rest of Country

                         Source: Office of Inspector General analysis of a 1-percent sample of 2005 Medicare Part B National Claims
                         History data, 2007.


                             Infusion Therapy for HIV/AIDS Patients
                             The National Institutes of Health defines AIDS as “a disease of the
                             body’s immune system caused by the human immunodeficiency virus
                             (HIV). AIDS is characterized by the death of CD4 cells (an important
                             part of the body’s immune system), which leaves the body vulnerable to
                             life-threatening conditions, such as infections and cancers.”2 According
                             to the Kaiser Family Foundation, approximately 438,000 individuals in
                             the United States and its territories were living with AIDS at the end of
                             2005.3 Medicare claims data show that about 99,300 beneficiaries had
                             at least one claim that referenced a diagnosis of HIV/AIDS in 2005.4




                                        2 “Glossary of HIV/AIDS-Related Terms,” 5th ed., October 2005. Available online at
                             http://aidsinfo.nih.gov/contentfiles/GlossaryHIV-relatedTerms_FifthEdition_en.pdf.
                             Accessed June 6, 2007.
                                3 The Henry J. Kaiser Family Foundation, “Estimated Number of Persons Living with
                             AIDS, All Ages, at the End of 2005.” Available online at http://www.statehealthfacts.org/cgi-
                             bin/healthfacts.cgi?action=compare&category=HIV%2fAIDS&subcategory=Persons+Living+with+AIDS
                             &topic=Persons+Living+with+AIDS+All+Ages. Accessed March 14, 2007.
                                        4 Office of Inspector General analysis of a 1-percent sample of 2005 Medicare National
                             Part B Claims History data.




       OEI-09-07-00030       ABERRANT BILLING         IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                          2
I N T R O D        U C T      I O N


                    Although no cure for AIDS exists, many treatments currently are
                    available. At some point in their treatment, persons with AIDS may
                    require intravenous infusion therapy: the gradual administration of a
                    drug or other solution into the body through a vein. For AIDS patients,
                    infusion therapy is most commonly used to provide antibiotics, antiviral
                    or antifungal medications (such as those paid for by Medicare under
                    Part B), parenteral (nonoral) nutrition, hydration, and electrolyte
                    repletion. Patients usually receive infusion therapy in a hospital, but
                    outpatient therapy—at a clinic or at home—is appropriate for some
                    patients.
                    Medicare Administration and Oversight in South Florida
                    The Centers for Medicare & Medicaid Services (CMS) is responsible for
                    paying Medicare claims and ensuring the integrity of those payments.
                    Contractors of different types perform these functions for CMS in
                    defined geographic areas. Medicare carriers process Part B physician
                    claims and also handle provider enrollment, customer service, and
                    education and training. Program safeguard contractors (PSCs) conduct
                    data analysis and other activities to help reduce fraud, waste, and
                    abuse. First Coast Service Options (FCSO) is the Medicare carrier for
                    Florida (and Connecticut). Electronic Data Systems Corporation (EDS)
                    became the PSC for Florida in March 2005 after taking over the
                    contract from TriCenturion.
                    CMS’s Office of Financial Management (OFM) has the overall
                    responsibility for ensuring the fiscal integrity of all CMS programs. As
                    such, OFM manages contractors’ program integrity efforts through its
                    Program Integrity Group. The CMS Regional Offices, including the
                    Atlanta Regional Office that covers Florida, also play a role in
                    protecting Medicare from fraud, waste, and abuse. Also, because of
                    concerns about Medicare fraud in South Florida, CMS established the
                    Miami Satellite Division in 1995. The Satellite Division reports to
                    OFM; is responsible for community outreach regarding fraud, waste,
                    and abuse; and provides support to law enforcement agencies in the
                    area.

                    Other Government agencies also have a role in protecting Medicare in
                    South Florida. The Office of Inspector General (OIG) investigates cases
                    of health care fraud and levies civil monetary penalties where
                    appropriate and can exclude problem providers from Medicare. Often in
                    coordination with OIG, the Department of Justice also investigates and



 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   3
I N T R O D        U C T        I O N


                    prosecutes health care fraud. Florida’s Agency for Health Care
                    Administration licenses clinics and enforces statutes related to the
                    provision of health care.
                    Fraud Involving HIV/AIDS Patients in South Florida
                    In June 2003, TriCenturion reported to CMS that it had identified a
                    scheme in which providers in South Florida, mainly in Miami, billed for
                    infusion therapy services that were “not medically necessary or feasible”
                    for beneficiaries with HIV/AIDS.5 The PSC found that “[p]roactive data
                    analysis revealed that infusion therapy providers could quickly move
                    from start-up to a high billing provider,” and “claims are being paid
                    because these egregious providers are circumventing the system edits
                    by submitting claims using allowable diagnosis codes and not the
                    diagnosis found in the medical records.”6 On June 27, 2003, staff from
                    TriCenturion and CMS’s Miami satellite office conducted the first of
                    20 onsite visits to aberrantly billing infusion therapy providers to
                    review records. None of the services reviewed met Medicare payment
                    requirements, and payments to the provider were suspended.
                    Investigations of the remaining 19 providers also resulted in payment
                    suspensions.7
                    CMS issued a National Medicare Fraud Alert to its contractors, regional
                    offices, and other government agencies on May 19, 2004, characterizing
                    the South Florida situation as the “infusion therapy scam.” According
                    to this alert, medical record review and investigative findings identified
                    the following characteristics of the scam, among others:

                        •	      services that are poorly documented or undocumented;

                        •	      documentation that indicates that patients received “vitamin
                                therapy,” not infusion of the expensive drugs billed;

                        •	      multiple providers billing for the patients on the same date or on
                                alternating dates;

                        •	      providers submitting bills for days when the clinic is closed for
                                business;



                      5 TriCenturion, LLC, “June 2003 Monthly Status Report” and “Infusion Project Progress
                    Report.” September 9, 2004.
                      6 Ibid.
                      7 Ibid.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                 4
I N T R O D        U C T      I O N


                        •	   providers under prepay medical review circumventing the
                             review by obtaining new provider numbers; and

                        •	   providers under payment suspension opening new clinics with
                             new provider numbers.

                    Federal and State authorities have investigated and prosecuted several
                    cases involving infusion providers. The Chief Financial Officer of
                    Florida cited a scam in which a Tampa man used offers of $100 cash and
                    $50 grocery cards to recruit patients to seek treatment at a local clinic
                    as 1 of the top 10 fraud cases in the State for 2005–2006.8 State and
                    Federal law enforcement investigations have revealed similar schemes
                    in which “runners” recruit patients with offers of cash to go to particular
                    infusion clinics for treatment. The clinic then bills for expensive drug
                    infusion treatments for these patients that they do not receive.9
                    Investigations by CMS’s contractors and OIG revealed that perpetrators
                    of infusion fraud schemes sometimes appropriate the identities of
                    legitimate providers to submit claims to Medicare.
                    Provider Enrollment and Sanction Authority
                    Federal regulations and CMS policy define the process for enrolling
                    providers in Medicare and enumerate the rights and responsibilities of
                    participating providers. Pursuant to 42 CFR § 424.510(d)(1),
                    prospective providers must submit completed application forms and
                    supporting documentation to CMS to obtain billing privileges. This
                    form solicits identifying information about the applicant, any adverse
                    legal history (such as felony convictions for financial crimes or the



                      8 Florida Department of Financial Services, “Annual Top 10 Fraud List,” June 20, 2006.
                    Available online at http://www.fldfs.com/PressOffice/ ViewConsumerAlert.asp?ID=2360.
                    Accessed January 16, 2007.
                      9 The United States Attorney’s Office, Southern District of Florida, “Miami Clinic Owner
                    Convicted of Health Care Fraud Involving HIV Infusion Treatments,” September 29, 2006.
                    Available online at http://www.usdoj.gov/usao/fls/PressReleases/060929-01.html. Accessed
                    October 25, 2006. The United States Attorney’s Office, Southern District of Florida, “Jury
                    Convicts Two in HIV-Clinic Fraud,” October 2, 2006. Available online at
                    http://miami.fbi.gov/dojpressrel/pressrel06/mm20061002.htm. Accessed October 25, 2006.
                    Office of the Attorney General of Florida, “Miami Men Arrested for $1.4 Million Medicare
                    Fraud Through Bogus HIV Clinic,” September 6, 2006. Available online at
                    http://myfloridalegal.com/newsrel.nsf/newsreleases/E4CDEA6773BA9E3A852571E1006C66
                    DE. Accessed October 25, 2006. “Meeting Minutes: Medical Fraud Committee, Florida
                    Board of Medicine, September 26, 2005.” Available online at
                    http://www.doh.state.fl.us/mqa/medical/min_09-26-05Fraud.pdf. Accessed June 6, 2007.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                  5
I N T R O D        U C T      I O N


                    revocation of a Medicare billing number), the provider’s practice
                    location, names of individuals having ownership or managing control of
                    the business, and the billing agent for the provider, if one exists. Clinics
                    with multiple practice locations must identify each location on the
                    application. By signing and submitting the application form, the
                    applicant agrees to follow all Medicare laws, regulations, and program
                    instructions. The CMS “Program Integrity Manual,” Chapter 10,
                    Section 2.1, stipulates that carriers must process 80 percent of new
                    applications within 60 days, 90 percent within 120 days, and 99 percent
                    within 180 days of receipt. Pursuant to 42 CFR § 424.80(b)(2), providers
                    may reassign their billing privileges to certain other entities, such as
                    clinics with which they have contractual relationships; providers
                    request reassignment by submitting reassignment applications to CMS.
                    In Florida, the carrier issues a separate billing number for each
                    reassignment or clinic practice location.

                    Preenrollment site visits can help protect the Medicare program from
                    fraud and abuse. Regulations at 42 CFR § 424.510(d)(8) permit CMS to
                    perform onsite inspections to verify that the information on the
                    enrollment applications is correct and to determine whether the
                    applicants comply with enrollment requirements; onsite visits are
                    required for independent diagnostic testing facilities (IDTFs), Indian
                    Health Service facilities that supply durable medical equipment under
                    Part B, and community mental health centers.10 CMS stated in an
                    April 25, 2003, proposed rule that in 1998 and 1999, it had funded
                    320 site visits to various types of new and existing providers that
                    carriers had identified as potentially problematic.11 About one-third of
                    the providers visited had their applications denied or provider numbers
                    revoked or were referred to contractor fraud units. CMS cited this effort
                    in the proposed rule and stated, “[w]e believe that site visits are an
                    important component of provider enrollment.” In August 2005, CMS
                    staff from the Miami and Los Angeles Satellite Divisions reported that
                    contractors in their jurisdictions had terminated the billing privileges of
                    87 of 180 providers based on recent site visits. They estimated that the




                      10 CMS, “Program Integrity Manual,” Chapter 10, sections 4.19.6, 11.9.2, and 12.1.1(B).
                      11 “Medicare Program: Requirements for Establishing and Maintaining Medicare Billing
                    Privileges.” 68 FR 22064, 22065 (proposed April 25, 2003).




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS               6
       I N T R O D             U C T          I O N 



                                                                                            California visits had saved at
                                                                                            least $9 for each $1 spent.12
           FIGURE 2
                                                                                            From September through
 Empty office found
 on a 2005 site visit.                                                                      December 2005, the California
  If not for the visit,                                                                     carrier, National Heritage
      this provider’s                                                                       Insurance Corporation (NHIC),
  application would
                                                                                            conducted targeted
have been approved.
                                                                                            preenrollment site visits of
                                                                                            95 non-IDTF providers; only
                                                                                            28 of the applications were
                                                                                            approved.13 As shown in Figure
                                                                                            2, some of the visits revealed
                                                                                            completely empty offices. The
                                                                                            carrier further noted that “. . .
                                                                                            these applications would have
                                                                                            been approved and the provider
                                                                                            could have submitted false
                            Source: “NHIC CA Provider Enrollment On-Site Verification
                            Program,” 2007.                                                 claims had it not been for the
                                                                                            site visits.”

                                 Providers must comply with all Medicare laws and regulations as a
                                 condition of their continued enrollment; several authorities exist to
                                 remove noncompliant providers from the program if necessary. The
                                 Social Security Act specifies circumstances under which the Secretary of
                                 the Department of Health and Human Services (HHS) must exclude
                                 certain entities from Medicare and others under which the Secretary
                                 may, at his or her discretion, exclude entities.14 In addition,
                                 42 CFR § 424.535 gives five reasons CMS may revoke the billing
                                 privileges of a provider: (1) noncompliance with enrollment
                                 requirements, (2) exclusion from Federal programs, (3) certain felony
                                 convictions, (4) submitting false or misleading information on an
                                 enrollment application, or (5) determination of the onsite review that




                                    12 “Special Rules for Special Places,” a position paper submitted by staff from CMS’s
                                 Miami Satellite Division and Los Angeles Satellite and Regional Offices for Regions 2, 4,
                                 and 9 to the CMS central office in August 2005.
                                    13 NHIC, “NHIC CA Provider Enrollment On-Site Verification Program,” 2007.
                                    14 Social Security Act § 1128. The Secretary of HHS has delegated the exclusion
                                 authority to OIG.




          OEI-09-07-00030        ABERRANT BILLING    IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                  7
I N T R O D        U C T      I O N


                    the provider is not operational or does not satisfy enrollment
                    requirements. Providers must be given prior notice of exclusions or
                    revocations and have the right to appeal. Providers may also submit
                    plans of corrective action to avert pending revocations.

                    In addition to the authority to revoke providers’ billing privileges,
                    Federal regulations also define CMS’s authority to suspend Medicare
                    payments to providers. Pursuant to 42 CFR § 405.371, CMS may
                    suspend approved payments if it suspects that it has overpaid a
                    provider or that a provider has engaged in fraud or willful
                    misrepresentation of claims. Generally, CMS must inform the provider
                    of the intent to suspend payments, explain the reasons for the action,
                    and allow the provider to submit a rebuttal statement contesting the
                    decision to suspend payments.15 In cases of suspected fraud or
                    misrepresentation, or if it is likely to harm Medicare Trust Funds, CMS
                    need not provide prior notice.16 In these cases, the provider may submit
                    a rebuttal statement once the suspension is in effect.17 Providers may
                    not appeal further if CMS upholds the suspension after considering a
                    rebuttal.18 Suspensions last for an initial period of 180 days, which
                    CMS may extend by another 180 days at the request of the carrier or a
                    law enforcement agency.19
                    Previous Studies
                    In a 2006 report, the Government Accountability Office (GAO) assessed
                    CMS’s allocation of Medicare Integrity Program (MIP) funds between
                    fiscal years 1997 and 2005 and concluded that “the agency’s funding
                    approach is not geared to target MIP resources to the activities with the
                    greatest impact on the program and to ensure that the contractors have
                    funding commensurate with their relative workloads and risk of making
                    improper payments.”20 GAO also noted that “one PSC received about
                    4 cents for conducting benefit integrity work for each $100 in paid
                    claims . . . in a jurisdiction that included Florida, which is at high risk



                      15 42 CFR § 405.372 (b)(1). 

                      16 42 CFR § 405.372 (a)(3) . 

                      17 42 CFR § 405.372 (b)(2). 

                      18 42 CFR § 405.375 (c). 

                      19 42 CFR § 405.372 (d). 

                      20 GAO, “Medicare Integrity Program: Agency Approach for Allocating Funds Should Be 

                    Revised,” September 2006, p. 21.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS            8
I N T R O D        U C T      I O N


                    for fraudulent billing. In contrast, PSCs received the same level of
                    funding to conduct benefit integrity work in states at lower risk for
                    fraudulent billing, including Iowa, Montana, Pennsylvania, and
                    Wyoming.”

                    In March 2007, OIG published the results of 1,581 unannounced site
                    visits to durable medical equipment suppliers in South Florida in a
                    report entitled “South Florida Suppliers’ Compliance With Medicare
                    Standards” (OEI-03-07-00150). We found that 31 percent of the
                    suppliers visited “did not maintain a physical facility or were not open
                    and staffed during business hours.” We recommended that CMS
                    strengthen the enrollment process for durable medical equipment
                    suppliers. CMS concurred with most of our recommendations and
                    stated that it will take several steps to improve provider enrollment,
                    including conducting more unannounced site visits and more rigorous
                    background checks of applicants.


                    METHODOLOGY
                    Claims Patterns Analysis
                    To analyze beneficiary and provider claims patterns, we first defined
                    the population from which to construct profiles as, respectively,
                    beneficiaries with at least one claim referencing a diagnosis of
                    HIV/AIDS (ICD-9 code 042) during a specified time period and providers
                    that submitted at least one claim with an HIV/AIDS diagnosis during
                    the same time period. During preliminary data analysis, we determined
                    that the dollar amounts submitted and reimbursed for beneficiaries
                    with HIV/AIDS in the three South Florida counties, especially for drugs,
                    were significantly less in the second half of 2006 than in the first.
                    Therefore, to concentrate on more current billing patterns, we defined
                    our time period to be claims received in the third or fourth quarters of
                    2006 (July through December). We also learned from OIG investigators
                    and from CMS contractors that although CMS adjusts claims data
                    based on monies due from calculated overpayments, participants in
                    infusion fraud rarely actually pay back any of the overpayment
                    amounts. Because we wanted to assess how much money CMS paid to
                    providers, we limited our data set to the original actions that CMS took
                    on the claims.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   9
I N T R O D        U C T      I O N


                    To create the profiles, we first obtained from CMS the Medicare Part B
                    National Claims History data files containing all claims received in the
                    third and fourth quarters of 2006.21 We then identified all beneficiaries
                    and providers appearing on at least one claim referencing an HIV/AIDS
                    diagnosis as either the principal diagnosis on the claim or the line item
                    diagnosis for a particular service. Next, we matched these lists of
                    beneficiaries and providers back to the data sets containing all Part B
                    claims from the third and fourth quarters of 2006. Thus, we created two
                    analysis data sets of claims received in the third or fourth quarter of
                    2006. The first contained all claims received for beneficiaries with at
                    least one claim referencing HIV/AIDS in that period, and the second
                    contained all claims received from providers that submitted at least one
                    claim referencing HIV/AIDS during that period. We then used the SAS
                    statistical software package to analyze the data.

                    Our analysis often compares the three South Florida counties to other
                    areas of the country. We defined a claim as originating from South
                    Florida if the provider’s ZIP Code (as it appeared on the claim) was in
                    Miami-Dade, Broward, or Palm Beach Counties in Florida. We defined
                    a beneficiary as a South Florida beneficiary if more than half of the
                    beneficiary’s claims originated from South Florida and a provider as a
                    South Florida provider if more than half of the provider’s claims
                    originated there.

                    In addition to analyzing data from 2006, we examined historical trends
                    from 2001 through 2005 using 1-percent samples of the Medicare Part B
                    National Claims History data. Since the 1-percent samples are
                    compiled by the date of service rather than the date of receipt, we used
                    a slightly different process to create our analysis sets. First, we
                    identified all beneficiaries and providers in a given year with at least
                    one claim referencing a diagnosis of HIV/AIDS. Then, we identified all
                    claims submitted for those beneficiaries or by those providers. We then
                    summarized the combined claims data from the 5 years by the month in
                    which the claim was received and by geographic location (the three
                    South Florida counties, the rest of Florida, or the rest of the country).



                       21 The data were taken from CMS weekly claims-processing cycles, so the dates do not
                    correspond exactly to the starting and ending dates of the third and fourth quarters of 2006.
                    Also, the data did not have the receipt date variable available, only the processing date.
                    The claims in our set spanned processing dates from June 29 to December 28, 2006.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                 10
I N T R O D        U C T      I O N


                    Assessment of Controls
                    We interviewed staff from CMS and its contractors in South Florida
                    (FCSO and EDS) about infusion fraud and actions taken to address it.
                    We also obtained documents from CMS and its contractors pertaining to
                    infusion fraud, including monthly reports the PSCs submitted to CMS
                    from January 2003 through November 2006. FCSO provided data on
                    provider number revocations, and CMS, FCSO, and EDS provided data
                    on overpayments. We also interviewed staff and obtained documents
                    from CMS’s Part B carrier in California to learn about antifraud efforts
                    in another vulnerable area, Southern California. We did not
                    independently verify the information obtained from these interviews
                    and documents. We reviewed applicable laws, regulations, and policies,
                    as well as CMS provider enrollment applications and related materials.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-09-07-00030    ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   11
     Δ                  F I N D I N G S



In the last half of 2006, three South Florida counties                         Our analysis shows that Medicare
 accounted for half the total amount, and 79 percent                           received bills totaling $976 million,
         of the amount for drugs, billed nationally for                        of which it paid $240 million, for
                                                                               services claimed for beneficiaries
                 Medicare beneficiaries with HIV/AIDS
                                                                               with HIV/AIDS in the last half of
                                          2006. Although in the second half of 2006 about 10 percent of Medicare
                                          beneficiaries with HIV/AIDS lived there, claims originating in
                                          Miami-Dade, Broward, and Palm Beach Counties constituted 50 percent
                                          of the submitted charges and 37 percent of the paid amount. Nearly
                                          61 percent of the total charges originating in the three South Florida
                                          counties were for nonoral drugs; nonoral drug claims represented just
                                          16 percent of the submitted charges in other geographic areas. Overall,
                                          the three counties accounted for 79 percent of the amount submitted to
                                          Medicare nationally for drug claims involving HIV/AIDS patients.
                                          Furthermore, as shown in Figure 3, the South Florida proportion was
    FIGURE 3
    The amount submitted for beneficiaries with HIV/AIDS in South Florida exceeded
    the amount submitted for beneficiaries in the rest of the country for 2 years

        $1,400



                           South Florida Drugs        South Florida Other
        $1,200
                           Rest of Country Drugs      Rest of Country Other


        $1,000



                 $800
      Millions




                 $600



                 $400



                 $200



                   $0
                          Jan–Jun   Jul–Dec      Jan–Jun   Jul–Dec     Jan–Jun     Jul–Dec     Jan–Jun   Jul–Dec   Jan–Jun   Jul–Dec
                            2002     2002          2003     2003         2004       2004         2005     2005       2006     2006

    Source: OIG analysis of 1-percent samples of 2001 through 2005 Medicare Part B National Claims History data and 2006 Medicare Part B
    National Claims History data, 2007.


                  OEI-09-07-00030         ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                        12
        F    I N D I N G                  S


                                         even higher in previous periods. According to CMS staff who oversee
                                         the area, neither CMS nor its contractors have identified any clinical
                                         explanation for the high level of billing in South Florida.
                                         Aberrant claims patterns differentiate providers in South Florida from those
                                         in the rest of the country
                                         As displayed in Table 1, Medicare Part B claims data show that the
                                         claims patterns of providers that billed for HIV/AIDS services in the
                                         three South Florida counties in the last half of 2006 differed
                                         significantly from those of providers in the rest of Florida or in other
                                         States.22 For example, although the overall mean amount submitted to
                                         Medicare per provider was comparable in all locations, the mean
                                         amount submitted per provider specifically for beneficiaries with
                                         HIV/AIDS in the three counties was about 16 times higher than in the
                                         rest of Florida and 39 times higher than in all other States. Even
                                         greater disparities existed among drug claims: the mean submitted per
                                         provider in the three counties for such claims was about 64 times higher
                                         than in the rest of Florida and about 518 times higher than the mean in
                                         all other States. High billing for beneficiaries with HIV/AIDS was
                                         relatively widespread in the three counties—about 5.9 percent of South
                                         Florida providers that billed for HIV/AIDS patients submitted more
                                         than $1 million each for those patients in the last half of 2006 compared
                                         to less than 0.5 percent in the rest of Florida or in all other States.
                                         Sixteen of the top twenty billers of services for beneficiaries with

   Table 1: Significant differences exist between South Florida providers and others

  Provider attribute
                                                               South Florida 
             Rest of Florida 
        Rest of country

  Mean amount submitted 
                                                                 $711,753 
                  $614,679 
              $414,922 

  Mean amount submitted for beneficiaries with HIV/AIDS                                   $267,653                     $16,343                   $6,878
  Mean amount submitted for drug codes for beneficiaries
                                                                                          $197,453                       $3,070                     $381
  with HIV/AIDS
  Percentage of submitted charges for beneficiaries with
                                                                                               38%                         2.7%                     1.7%
  HIV/AIDS
  Percentage of submitted charges for beneficiaries with
                                                                                               74%                         19%                       6%
  HIV/AIDS that are for drug codes
  Mean number of beneficiaries with HIV/AIDS                                                     42                           17                      10
Source: OIG analysis of claims received in the third or fourth quarter 2006 in the Medicare Part B National Claims History data, 2007.




                                            22 In this finding, the term “provider” refers to any entity that submitted at least one
                                         Medicare Part B claim in the last half of 2006 that referenced an HIV/AIDS diagnosis.




            OEI-09-07-00030              ABERRANT BILLING     IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                           13
             F    I N D I N G                 S


                                             HIV/AIDS were located in South Florida, and all of the top 40 billers for
                                             drugs for these patients were located there.

                                             In addition to mean billed amounts, two elements of the claims patterns
                                             of providers in the three South Florida counties were notable. First,
                                             38 percent of the total charges South Florida providers submitted to
                                             Medicare in the last half of 2006 were for AIDS patients; beneficiaries
                                             with HIV/AIDS accounted for less than 3 percent of providers’
                                             submitted charges in the rest of Florida or in all other States. Second,
                                             74 percent of the charges South Florida providers submitted for
                                             beneficiaries with HIV/AIDS were for drugs, compared with 19 percent
                                             in the rest of Florida and 6 percent in all other States. Furthermore, of
                                             the 78 South Florida providers that billed more than $1 million for
                                             beneficiaries with HIV/AIDS, 58 (74 percent) submitted more than half
                                             of their charges for drugs for these patients. Only two of the five
                                             providers that billed $1 million or more for beneficiaries with HIV/AIDS
                                             in the rest of Florida and none of the 23 in other States shared this
                                             billing pattern.
                                             More reimbursement, especially for drugs, is claimed for beneficiaries with
                                             HIV/AIDS in South Florida than for those in the rest of the country
                                             As with providers, the claims patterns of beneficiaries with HIV/AIDS
                                             in South Florida differed greatly from those of beneficiaries in other
                                             regions in the last half of 2006. For example, average submitted
                                             charges per beneficiary with HIV/AIDS in South Florida were about
                                             nine times those in the rest of Florida or in all other States. The
                                             greatest differences were for drugs—South Florida beneficiaries were
                                             listed on drug claims more often, and for higher amounts, than those
                                             elsewhere. The average beneficiary in South Florida also was listed on
                                             claims for a greater number of unique drug codes and on claims from

   Table 2: South Florida beneficiaries with HIV/AIDS are associated with more and larger claims

  Beneficiary attribute                                                             South Florida              Rest of Florida           Rest of country
  Mean amount submitted                                                                   $57,482                       $6,532                   $6,333
  Percentage of beneficiaries with at least one drug claim                                     66%                         12%                     10%
  Mean amount submitted for drug claims (all beneficiaries)                               $34,412                         $904                   $1,024
  Mean amount submitted for drug claims (beneficiaries with
                                                                                          $52,505                       $7,463                   $9,778
  at least one drug claim) 

  Mean number of different drugs for which the beneficiary

                                                                                                5.2                         2.0                     1.8
  had claims (beneficiaries with at least one drug claim)
  Mean number of providers that submitted a claim per
                                                                                                 16                         8.5                     8.1
  beneficiary (all beneficiaries)
Source: OIG analysis of claims received in the third or fourth quarter 2006 in the Medicare Part B National Claims History data, 2007.



                 OEI-09-07-00030             ABERRANT BILLING     IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                           14
F   I N D I N G        S


                      more providers than those in other areas. Table 2 displays some of the
                      attributes that differentiated South Florida beneficiaries from others.



Other metropolitan areas exhibit patterns of              CMS satellite division staff and
aberrant billing similar to South Florida but             contractors in South Florida reported
                            to a lesser extent            concerns that as more controls are
                                                          instituted in that region, the aberrant
                      billing patterns observed there may spread to other geographic areas.
                      In October 2004, the PSC identified some aberrantly billing providers
                      outside of South Florida and, in response, requested that existing drug
                      code edits be extended to two Gulf Coast counties.23 FCSO carried out
                      this request on January 4, 2005.24 In 2005, the Miami Satellite
                      Division’s analysis showed that the patterns were spreading into
                      northern and western areas of the State and also to venues outside
                      Florida.25 In late March 2007, CMS issued a National Medicare Fraud
                      Alert because several providers in the greater Detroit metropolitan area
                      billed for infusion therapy in the aberrant manner characteristic of
                      South Florida providers. The alert stated that many of the individuals
                      associated with these providers had recently moved from Florida and
                      Puerto Rico.

                      Our data analysis suggests that although the aberrant billing patterns
                      are not widespread outside of South Florida, some other metropolitan
                      areas share some characteristics with the three counties. We identified
                      four attributes that characterize Medicare claims patterns for
                      beneficiaries with HIV/AIDS in South Florida: (1) the percentage of the
                      total amount submitted for beneficiaries with HIV/AIDS that is for
                      drugs, (2) the mean amount submitted per provider for beneficiaries
                      with HIV/AIDS, (3) the percentage of beneficiaries with HIV/AIDS who
                      have at least one drug claim, and (4) the mean amount submitted for
                      drugs per beneficiary with at least one drug claim. Table 3 shows the
                      six other geographic areas where at least two of these characteristics




                        23 TriCenturion, LLC, “October 2004 Monthly Status Report.”
                        24 TriCenturion, LLC, “January 2005 Monthly Status Report.”
                        25 “Special Rules for Special Places,” a position paper submitted by staff from CMS’s
                      Miami Satellite Division and Los Angeles Satellite and Regional Offices for Regions 2, 4,
                      and 9 to the CMS central office in August 2005.




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                   15
        F    I N D I N G                  S


                                         were at least twice the national level (excluding South Florida) and the
                                         total amount submitted for beneficiaries with HIV/AIDS was at least
                                         $1 million.26

   Table 3: Other areas share some of the claims characteristics of South Florida
                                                                                                                                 Mean amount
                                                 Amount                                      Mean         Percentage of          submitted for
                                           submitted for           Percentage of     submitted per         beneficiaries             drugs per
                                            beneficiaries             submitted        provider for         with at least      beneficiary with
                                           with HIV/AIDS             amount for       beneficiaries            one drug            at least one
  Geographic area                               (millions)                drugs      with HIV/AIDS                 claim            drug claim
  All U.S. except South Florida                      $489                  16%              $7,482                  11%                 $9,520
  South Florida                                      $487                  61%           $267,653                   66%                $52,505
  Riverside-San Bernardino-
                                                     $14.3                 73%               $6,202                 28%                    $4,223
  Ontario, CA
  Nashville-Davidson-
                                                      $5.9                 60%               $7,852                 30%                   $13,023
  Murfreesboro, TN
  Providence-New Bedford-Fall
                                                      $5.3                 70%               $2,744                   5%                 $158,899
  River, RI-MA
  Nonmetropolitan Florida                             $4.7                 62%              $34,209                 27%                   $15,229
  Kansas City, MO-KS                                  $4.8                 50%               $7,347                 12%                   $29,605
  Indianapolis, IN                                    $2.9                 43%               $3,912                 11%                   $53,817
Source: OIG analysis of claims received in the third or fourth quarter 2006 in the Medicare Part B National Claims History data, 2007.




             CMS has had limited success in controlling the                          CMS and its contractors have
                 aberrant billing practices of South Florida                         used multiple approaches in
                                                                                     South Florida to try to control
                                 infusion therapy providers
                                                                                     aberrant billing for
                                         beneficiaries with HIV/AIDS, but based on our data analysis and review
                                         of CMS materials, none has yet proven effective in eliminating it.
                                         Recent efforts show promise, but their long-term effectiveness is
                                         unknown. The most common tools used include payment suspensions,
                                         prepayment review, provider number revocations, claims-processing
                                         edits, and onsite investigations of existing providers.
                                         Administrative actions on billing numbers have significant limitations
                                         Payment suspensions. Suspending payments gives CMS an immediate
                                         and long-lasting way to prevent Medicare from paying suspected false
                                         infusion claims from a particular provider number. Once approved,
                                         suspensions take effect immediately, thereby stopping payments to



                                            26 See Appendix A for complete details on how we constructed Table 3.




            OEI-09-07-00030              ABERRANT BILLING     IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                                16
F   I N D I N G        S


                      suspected fraudulent providers. Because suspensions last a minimum
                      of 180 days, and longer if extended, the payments remain stopped while
                      the PSC and/or law enforcement investigates the provider. For these
                      reasons, EDS’s benefit integrity staff described payment suspensions as
                      the strongest tool available to them to deal with suspected fraudulent
                      providers.

                      Despite these strengths, administrative requirements limit the
                      usefulness of suspensions in South Florida. All suspensions must be
                      approved by CMS, so although their effect is immediate, the approval
                      process can delay implementation, according to contractor personnel.
                      Also, although aberrant billers often control multiple provider numbers,
                      investigations have also found that they sometimes use other providers’
                      identities to submit claims. Hence, CMS will suspend provider numbers
                      only when there is evidence of an overpayment or fraudulent activity
                      involving those particular numbers, rather than all provider numbers
                      associated with the aberrant biller. While this practice minimizes the
                      chance of inadvertently suspending the billing number of a provider
                      that is not involved in the aberrant billing, it also means that aberrant
                      billers with multiple numbers can continue billing Medicare using
                      unsuspended numbers. Lastly, because having a current payment
                      suspension is not one of the reasons for which CMS may deny an
                      enrollment application, a suspended provider that submits a new
                      application that meets all requirements must be approved.27
                      To address the last issue, in June 2006 CMS’s Program Integrity and
                      Medicare Contractor Management groups instructed FCSO to set aside
                      applications for new provider numbers from providers with active
                      payment suspensions until the suspensions are resolved.28 However,
                      CMS also stated that this set-aside applied only if the new applicant
                      had the same business structure as the suspended provider. Hence,
                      corporate providers could bypass the restriction by changing any
                      element of their board structure. CMS staff told us that the agency
                      verbally advised FCSO in late April 2007 that unless a suspended
                      provider reapplies with a new tax identification number, any new
                      application that lists, in any capacity, individuals that had ownership or



                        27 42 CFR § 424.510.
                        28 CMS, Joint Signature Memorandum, JSM-TDL-06505, June 23, 2006.




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   17
F   I N D I N G 
S


                      management interest in the suspended provider also should be set
                      aside.

                      Prepayment review. If the PSC identifies a provider it suspects is
                      submitting false claims, but the amount billed is not high enough or the
                      level of evidence is not sufficient to justify a suspension, it often places
                      the provider on prepayment review. This means that the PSC requests
                      and reviews documentation to support all claims submitted by the
                      provider before payment is made. Although prepayment review has
                      fewer administrative requirements than payment suspension and has
                      proven effective with individual providers, it has limitations. For
                      example, although contractor personnel say most infusion therapy
                      providers under prepayment review do not respond to documentation
                      requests, there is potentially a significant administrative burden if
                      many providers do respond. Also, prepayment medical review affects
                      only future claims; unlike a suspension, it cannot stop payment on
                      already-approved claims. Furthermore, similar to a suspension, the
                      prepayment review requirement is applied only to provider numbers on
                      which the aberrant activity was observed.

                      Revocations. Revoking a billing number prevents a provider from
                      submitting claims with that number, but administrative requirements
                      limit the ability of revocations to control aberrant billing for infusion
                      therapy. As such, PSC staff told us that they issue revocations as part
                      of their normal investigative procedures, but do not use them as a
                      primary tool. One limitation is that, like suspensions and prepayment
                      reviews, revocations are applied only to particular provider numbers,
                      not to the individual or corporation associated with the problem. CMS
                      staff gave an example of one South Florida provider that had
                      29 separate provider numbers; although 19 were revoked, the provider
                      can still bill with the remaining numbers. Even if all of a provider’s
                      billing numbers are revoked, the provider can regain the ability to bill
                      Medicare. Pursuant to 42 CFR § 424.535, providers that have their
                      billing privileges revoked may reapply by submitting new applications.
                      CMS and contractor staff told us that as long as the provider meets all
                      requirements, they must approve the new application. Our data
                      analysis shows that CMS paid about $470,000 in 2006 to two South
                      Florida providers that appear to have obtained new provider numbers
                      after revocations.

                      Requirements related to the effective dates of revocation also limit their
                      value in controlling aberrant billing. Providers must be notified 30 days


    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   18
F   I N D I N G        S


                      prior to the effective date of the revocation, allowing extra time to
                      submit additional claims.29 Also, revoked providers can continue to bill
                      for service dates prior to the effective date of the revocation.30 Hence,
                      “. . . a fraudulent provider with a revocation date of September 1, 2005
                      can continue to bill for dates of service going back to March 1, 2004. It
                      also means that the same provider has until March 1, 2006, to bill for
                      services rendered on August 31, 2005.”31 Although this is cited as
                      vulnerability by several CMS and contractor staff, we did not find any
                      payments made to infusion therapy providers in 2006 on claims received
                      between the date of their revocation letters and the effective dates of the
                      revocations.
                      Claims-processing edits have been effective in the short term but have not
                      had a lasting effect
                      Service-level edits. According to monthly reports from the PSC to CMS,
                      starting in March 2004, CMS began approving edits on specific drug
                      codes that were targets of abuse in the three counties in South Florida.
                      The first such edit was a prepayment edit implemented on
                      March 3, 2004. The PSC reported that in its first month of operation,
                      nearly 5,000 claims triggered this edit. Providers responded to the
                      documentation requests for only about 26 percent of these claims, and
                      more than 99 percent of reviewed services were denied. A “medically
                      unbelievable edit,” which screens claims for services that are not
                      clinically feasible, for this code was added on April 30, 2004, and also
                      resulted in numerous payment denials. Later edits also have resulted
                      in numerous denials.

                      Although edits have reduced payments for particular codes, the
                      tendency of aberrant billers to switch to new codes has undermined the
                      edits’ overall effectiveness. The PSC noted in a 2005 strategy document
                      submitted to CMS that “[a]s pre pay barriers have been erected,
                      fraudulent providers have scurried in mass [sic] to other codes.
                      Currently there are a number of new J codes which have been billed for




                        29 42 CFR § 424.535(f).
                        30 42 CFR § 424.535(b).
                        31 “Special Rules for Special Places,” a position paper submitted by staff from CMS’s
                      Miami Satellite Division and Los Angeles Satellite and Regional Offices for Regions 2, 4,
                      and 9 to the CMS central office in August 2005.




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                   19
   F    I N D I N G                   S


                                     over $5 million in March 2005 by known aberrant providers.”32
                                     Although the PSC used claims data analysis to detect new codes likely
                                     to be abused, this process was too slow to respond adequately; the
                                     August 2004 PSC report to CMS noted that “the time span for us to
                                     identify a new code, draft an edit and have it implemented by [the
                                     carrier] allows weeks to go by while millions of dollars are paid out
                                     before the edits control the behavior.”33 Figure 4, which appeared in a
                                     September 2004 report from the PSC to CMS, shows South Florida
                                     providers’ quick response to the first prepayment edit that was
                                     implemented, a pattern that generally continued with later edits.

FIGURE 4
South Florida providers responded quickly to the first prepayment edit implemented
(Note that the allowed amount in other Florida counties for these codes remained nearly constant over
the same period.)

                                                          Allowed Amount for Infusion Drugs
   $35,000,000



   $30,000,000
                                                                                                  Edit
                                                                                                  implemented
   $25,000,000



   $20,000,000


                                                    Code 3
   $15,000,000
                                                    Code 2
                                                    Code 1
   $10,000,000



    $5,000,000



            $0
                  Jul-03   Aug-03    Sep-03    Oct-03    Nov-03     Dec-03   Jan-04    Feb-04   Mar-04    Apr-04   May-04    Jun-04    Jul-04


                                                                  Month of Paid Date

Source: TriCenturion LLC, “Infusion Therapy Project Report, September 9, 2004,” 2004. Modified to delete lines showing activity outside of
South Florida, to add explanatory text, and to redact the codes involved. Note that the data underlying this chart are not limited to billings for
beneficiaries with HIV/AIDS and include Miami-Dade and Broward Counties only.




                                        32 EDS, “Comprehensive Plan by EDS To Stop Infusion Fraud in South Florida,”
                                     submitted to CMS in early 2005.
                                        33 TriCenturion, LLC, “August 2004 Monthly Status Report.”




       OEI-09-07-00030               ABERRANT BILLING     IN   SOUTH FLORIDA   FOR    BENEFICIARIES WITH HIV/AIDS                                    20
        F    I N D I N G                  S


                                        According to reports by TriCenturion, investigations conducted in
                                        2004 confirmed providers’ swift reactions to claims-level edits and their
                                        intent to defraud Medicare. In the summer of 2004, TriCenturion
                                        identified the 25 top aberrantly billing providers, including those that
                                        had switched codes after edits were implemented, and targeted them for
                                        site visits. The purpose of the visits was to apprise the providers of
                                        their aberrant billing activity and to determine possible reasons for the
                                        activity. Some providers claimed ignorance of their billing activity, but
                                        others “admitted that they had switched not due to medical necessity
                                        but due to Medicare not paying for the other code.”34
                                        As CMS contractors implemented new edits for drug codes, South
                                        Florida providers shifted their billing to other services. A new claims
                                        edit implemented in July 2006 appears to have limited the overall
                                        amount reimbursed for services claimed on behalf of beneficiaries with
                                        HIV/AIDS; based on our analysis, reimbursement for these beneficiaries


   Table 4: Increase in payments for nondrug services claimed for beneficiaries with HIV/AIDS


                                                                                    HCPCS              Payment            Payment             Percent
                                                                                                    st                 nd
  Service                                                                             code         1 half 2006        2 half 2006             change
  Injection procedure for sacroiliac joint, arthrography, and/or
                                                                                     27096              $6,324            $580,111            9,073%
  anesthetic/steroid
  Transluminal balloon angioplasty, percutaneous; renal/visceral
                                                                                     35471                   $0           $196,671                      -
  artery
  Endovenous ablation therapy of incompetent vein, extremity                         36475              $4,167            $894,496          21,368%
  Injection, anesthetic agent and/or steroid, facet joint or facet joint
                                                                                     64475           $275,566          $3,182,247             1,055%
  nerve; lumbar or sacral, single level
  Injection, anesthetic agent and/or steroid, facet joint or facet joint
                                                                                     64476           $209,789          $2,623,809             1,151%
  nerve; lumbar or sacral, additional level
  Injection, anesthetic agent and/or steroid, transforaminal epidural;
                                                                                     64479              $1,252            $103,024            8,126%
  cervical or thoracic, single level
  Destruction by neurolytic agent, paravertebral facet joint nerve;
                                                                                     64622             $17,477            $105,026              501%
  lumbar or sacral, single level
  Destruction by neurolytic agent, paravertebral facet joint nerve;
                                                                                     64623             $17,195            $528,337            2,973%
  lumbar or sacral, additional level
  Ultrasonic guidance for needle placement                                           76942              $9,688            $536,636            5,439%
  Combined right/retrograde left heart catheterization, for congenital
                                                                                     93531                   $0           $121,023                      -
  cardiac anomalies
Source: OIG analysis of 2006 Medicare Part B National Claims History data, 2007.

Note: Although some of these codes also had significant growth in areas outside of South Florida, the growth rate in South Florida for each of these
codes was at least three times that in the rest of the country.




                                            34 Ibid. and TriCenturion, LLC, “November 2004 Monthly Status Report.”



            OEI-09-07-00030             ABERRANT BILLING     IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                                    21
F   I N D I N G 
S


                      decreased by about 42 percent and reimbursement for drugs by
                      73 percent from the first half of 2006 to the second half. Meanwhile,
                      payments for services other than drugs increased 54 percent in the
                      second half of 2006 compared to the first, growing from $37 million to
                      $57 million. Ten service codes had particularly significant growth, as
                      shown in Table 4; South Florida payment on behalf of beneficiaries with
                      HIV/AIDS for each of these codes was greater than that for the rest of
                      the country combined in the latter half of 2006.

                      Beneficiary-level edits. In addition to claims-based edits, Medicare has
                      employed beneficiary-based edits to combat fraud in South Florida. In
                      June 2004, the PSC began another antifraud effort called the High
                      Volume Claim Beneficiary Project. This automated edit denied all
                      claims except for certain services, such as emergency services, beyond a
                      certain dollar threshold for a group of 500 beneficiaries. However, most
                      beneficiaries involved in aberrant billing for infusion therapy were not
                      affected because beneficiaries with HIV/AIDS diagnoses were excluded.

                      CMS later approved a separate project specifically targeted toward
                      infusion beneficiaries called the High Volume Infusion Beneficiary
                      Project (HVIBP). The HVIBP was implemented on January 3, 2005,
                      and immediately resulted in many denials—the PSC claimed savings of
                      $31 million in the edit’s first month of operation. Our analysis of
                      Medicare claims data shows that overall reimbursement for South
                      Florida beneficiaries with HIV/AIDS fell from about $51 million in
                      December 2004 to $39 million in January 2005, and the mean
                      reimbursement per beneficiary with HIV/AIDS was cut significantly,
                      from $8,000 to $5,000. As with the claims-based edits, these effects
                      were temporary; by April 2005, total reimbursement for beneficiaries
                      with HIV/AIDS topped $150 million in South Florida, and the mean
                      reimbursement per beneficiary surpassed $18,000.
                      Onsite investigations of existing providers are effective in uncovering
                      fraudulent activity but are relatively infrequent
                      According to their monthly reports to CMS, the PSCs have
                      intermittently used onsite visits to investigate suspicious infusion
                      providers in South Florida. Between June and December 2003, the PSC
                      visited 20 providers it had identified as aberrant billers of infusion
                      therapy services. Payments to all 20 were suspended, and 5 were




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   22
F   I N D I N G        S


                      referred to law enforcement.35 Other targeted site visit efforts in
                      October 2004 and September 2005 produced similar results. Apart from
                      these larger efforts, PSC site visits to infusion providers generally have
                      been limited to one or two a month, according to the PSC reports. By
                      way of reference, our analysis indicated that about 1,300 South Florida
                      providers billed at least one claim in the last half of 2006 that listed an
                      HIV/AIDS diagnosis.
                      CMS has taken limited action to strengthen the enrollment process for new
                      infusion therapy providers
                      Although CMS recognized in 2003 that “. . . in many cases site visits are
                      the only method we have to ensure that providers and suppliers actually
                      exist and meet the requirements to participate in [Medicare] . . . ,”36 it
                      did not act on numerous contractor suggestions to implement
                      preenrollment site visits for South Florida infusion therapy providers
                      until mid-2006. In September 2004, TriCenturion submitted an
                      “Infusion Project Progress Report” to CMS. The report stated that “the
                      continued fraud and abuse in South Florida requires more drastic action
                      to stop the abuse being perpetrated against the Medicare Trust Fund”
                      and recommended that CMS contract for inspections of “all new clinics
                      in South Florida prior to issuing a provider number.” The “Infusion
                      Stopgap Plan” that EDS submitted to CMS in May 2005 also described
                      an enhanced provider enrollment process that included onsite visits. In
                      September 2005, EDS submitted a concept paper outlining the duties
                      and responsibilities of a Special Investigative Team that would conduct
                      in-depth investigations, including preenrollment site visits.37 In May
                      2006, FCSO submitted a paper to CMS entitled “Medicare Fraud and
                      CERT (Comprehensive Error Rate Testing Program) Scores: The Same
                      Challenge in Fraud-Infected Areas?” In it, FCSO proposed establishing
                      a pilot project to strengthen its prepayment activities, including
                      enhanced provider enrollment. According to FCSO, it identified




                        35 TriCenturion, LLC, “Infusion Project Progress Report,” September 9, 2004.
                        36 “Medicare Program: Requirements for Establishing and Maintaining Medicare Billing
                      Privileges.” 68 FR 22065–22066 (proposed April 25, 2003).
                        37 EDS, “September 2005 Monthly Status Report.”




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS          23
F   I N D I N G        S


                      unspent funds in its contract to finance the estimated $1 million,
                      18-month initiative.38
                      CMS approved the FCSO pilot project starting on July 12, 2006; it is
                      scheduled to end on January 11, 2008.39 As part of the enhanced
                      provider enrollment activity under the pilot, FCSO now conducts site
                      visits of all new clinic applicants in South Florida. These site visits are
                      performed by one individual working under contract to FCSO, who
                      sends a letter to each provider ahead of time announcing the date of the
                      visit and requesting the presence of medical personnel. According to
                      FCSO, each site visit costs $75; the total budget for the site visits,
                      including resources to review and process the findings, is $300,000.
                      Although FCSO had projected that it would conduct 30 to 50 site visits
                      of new applicants per month, only 59 had been conducted by
                      December 2006 because fewer clinics applied for billing privileges than
                      had been anticipated. FCSO plans to conduct unannounced visits later
                      in 2007 because it suspects that some fraudulent providers put on false
                      fronts during an announced visit. FCSO also anticipates expanding the
                      pilot to include site visits of existing Medicare providers.




                        38 For reference, according to FCSO, its total budget (including activities in both
                      Connecticut and Florida) for fiscal year 2007 is approximately $76 million.
                        39 FCSO, “Statement of Work, First Coast Service Options, South Florida Pilot Project.”




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS               24
Δ   R E C O M M E N D A T I O N S




                  CMS has had limited success in controlling aberrant billing by infusion
                  clinics in South Florida. The aberrant billing patterns discussed in this
                  report raise concerns about the integrity of the Medicare program.
                  Controls implemented to date have had limited effect. Therefore, we
                  recommend that CMS:
                  Mandate Site Visits for Certain Providers in High-Risk Jurisdictions
                  Medicare currently requires site visits before carriers issue provider
                  numbers to independent diagnostic testing facilities. The carrier in
                  Southern California expanded these visits to other providers to great
                  effect at little additional cost, but only for a limited time. (See page 7.)
                  Because the normal provider enrollment process is a desk review of
                  paperwork, both announced and unannounced site visits are essential in
                  high-risk areas to confirm that providers have physical addresses and
                  report accurate information in their applications. CMS could fund these
                  site visits out of carriers’ program management budgets, which already
                  support current provider enrollment activities.
                  Afford Contractors More Time To Review New Applications From Certain
                  Providers in High-Risk Jurisdictions
                  Contractor standards require that 80 percent of new applications be
                  processed within 60 days of receipt. In South Florida, this rule may
                  hinder FCSO’s ability to ensure that only legitimate providers obtain
                  billing privileges. CMS should set alternative standards in high-risk
                  jurisdictions for certain provider types and/or geographic areas
                  vulnerable to fraud. CMS also should allow contractors to exempt
                  applications from providers that have had recent revocations or
                  payment suspensions from the timeliness standard, even if the
                  corporate structures of the providers have changed or providers apply
                  under new tax identification numbers.
                  Modify the Statement of Work for the Jurisdiction That Includes South
                  Florida To Require Enhanced Activities To Fight Fraud and Abuse
                  CMS intends to release the Statement of Work for the Medicare
                  Administrative Contractor for Jurisdiction 9, which includes Florida,
                  Puerto Rico, and the U.S. Virgin Islands, later this year. The agency
                  should require and fund the new contractor to conduct enhanced
                  provider enrollment, data analysis, and claims-editing activities in the
                  portion of this area identified as high-risk.


OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   25
R   E C O        M M E N D A T                I O N       S


                      Require Extensive Review of All Reassignments in High-Risk Areas To
                      Confirm That They Are Legitimate
                      OIG investigators and CMS contractor personnel told us that fraudulent
                      infusion clinics in South Florida sometimes appropriate the identities of
                      legitimate providers to obtain billing privileges. For this reason, CMS
                      and the contractors said that they are reluctant to use sanctions such as
                      revocations and suspensions on all of the provider numbers associated
                      with a particular clinic when it revokes or suspends one, which
                      potentially leaves Medicare open to further abuse. To minimize the
                      chances of a legitimate provider being associated with a fraudulent one,
                      CMS should take steps to ensure that all reassignments in high-risk
                      areas are legitimate. The FCSO pilot project partially addresses this by
                      funding the carrier to conduct a more extensive review when it receives
                      a sixth reassignment application for a particular provider. For example,
                      contractors are directed to send the physician a letter to verify the
                      reassignment and to deactivate the provider identification number and
                      deny the application if the physician does not respond. CMS should
                      extend this policy by funding carriers to conduct this level of review for
                      all new and existing reassignments that meet the criteria specified in
                      the pilot, both in South Florida and in other high-risk geographic areas.
                      Strengthen Revocations To Prevent Further Fraud and Abuse
                      Currently, because providers may use revoked numbers to continue to
                      submit potentially fraudulent claims for service dates prior to the
                      effective date of the action, revocations do not adequately protect
                      Medicare funds. Similarly, in cases when fraudulent activity is evident,
                      the requirement to provide 30 days’ notice prior to the effective date of
                      the revocation may expose Medicare to additional potentially fraudulent
                      claims. CMS should consider shortening the notice period for
                      revocations. In addition, CMS should require prepayment review on all
                      claims from providers that have effective or pending revocations. CMS
                      also should develop a strategy for minimizing the risk to Medicare from
                      providers with multiple billing numbers, perhaps automatically placing
                      all numbers associated with a revoked number on prepayment review
                      pending further investigation.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS generally concurred with our recommendations. CMS stated that
                      our analysis will be useful to its continued efforts to prevent fraudulent
                      payments for infusion therapy and that the agency will be contacting

    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   26
R   E C O        M M E N D A T                I O N       S


                      OIG for details about additional metropolitan areas exhibiting aberrant
                      billing patterns. CMS also stated that our recommendations to
                      mandate site visits and afford contractors more time to review new
                      applications in high-risk jurisdictions have been incorporated into a new
                      demonstration project.

                      CMS stated that our recommendations demonstrate that CMS’s current
                      actions are working. CMS also stated that the decline in Medicare
                      payments in Florida from 2004 to 2006, despite increased amounts
                      billed, demonstrates the effectiveness of corrective actions. However,
                      we found that in the last half of 2006, approximately 10 percent of
                      beneficiaries with HIV/AIDS lived in the three South Florida counties,
                      but claims originating in those counties constituted 50 percent of
                      submitted charges and 37 percent of the Medicare paid amount. The
                      continued aberrant billing and payment patterns documented in our
                      report demonstrate the need for improved provider enrollment controls
                      to prevent the entry of unqualified providers into the Medicare program.
                      CMS acknowledged the need for improvement in the provider
                      enrollment process and described recent actions it has taken to
                      strengthen this process.

                      In response to our recommendation to modify the Statement of Work for
                      the jurisdiction including South Florida to require enhanced activities to
                      fight fraud and abuse, CMS concurred and stated that it has added
                      language to the Statement of Work to indicate that Florida is a
                      high-risk area and special actions are needed to deal with fraud. We
                      recommend that CMS require and fund enhanced provider enrollment,
                      data analysis, and claims-editing activities in this area.

                      In response to our recommendation that CMS review all reassignments
                      in high-risk areas, CMS concurred and stated that Medicare contractors
                      are currently required to review such reassignments. We have revised
                      our recommendation to clarify that CMS should conduct a more
                      extensive review sufficient to confirm the legitimacy of such
                      reassignments. For example, CMS could require contractors to send the
                      physician a letter to verify the reassignment and to deactivate the
                      provider identification number and deny the application if the physician
                      does not respond. This level of review is required and funded by the
                      FCSO pilot project only when the contractor receives a sixth
                      reassignment application for a particular provider. We recommend that
                      CMS extend this policy by funding carriers to conduct this level of
                      review for all new and existing reassignments that meet the criteria


    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   27
R   E C O        M M E N D A T                I O N       S


                      specified in the pilot, both in South Florida and in other high-risk
                      geographic areas.

                      CMS also concurred with our recommendation to strengthen
                      revocations. CMS states that it will consider enhancements to this
                      section of the regulations.40
                      While we recognize that traditional CMS program integrity actions form
                      an integral part of any antifraud strategy, they have proven insufficient
                      to control aberrant billing in South Florida. Our report shows that
                      while claims edits depress infusion claims activity for a time, providers
                      respond by changing billing patterns; this pattern of action and
                      response produces payment denials but few long-term savings to
                      Medicare as providers circumvent the controls. Payment suspensions,
                      revocations, and investigations eliminate particular problem providers
                      or provider numbers from the program, but have limited scope.
                      Additional efforts are needed to prevent unscrupulous individuals from
                      becoming Medicare providers.
                      CMS’s positive response to our recommendations, including its
                      initiation of the new demonstration project, indicates that the agency is
                      now moving toward strategies that should more effectively protect the
                      integrity of Medicare payments in South Florida.

                      The full text of CMS’s comments is available in Appendix B.




                        40 We note a technical correction—CMS’s comments cited 42 CFR 434.535; the
                      regulations listing the reasons a Medicare contractor may use to revoke billing privileges
                      are found at 42 CFR 424.535.




    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS                    28
Δ   A P P E N D I X ~ A

                  DETAILED METHODOLOGY FOR TABLE 3
                  To produce Table 3, we first determined the Metropolitan Statistical
                  Area (MSA) in which each service was claimed to have been provided.
                  To do so, we matched the Medicare Part B National Claims History data
                  to the Office of Management and Budget’s MSA data by the provider’s
                  ZIP Code. If a ZIP Code did not match any MSA, we considered the
                  claim to originate from a nonmetropolitan area of the State in which the
                  ZIP Code was located. Next, we summarized the claims data by
                  beneficiary, adding up the number of claims from each MSA in which
                  the beneficiary had a service. If any MSA was the source of more than
                  50 percent of a beneficiary’s claims, we considered the beneficiary as
                  belonging to that MSA. If not, we considered the beneficiary as
                  belonging to no MSA. We used the same process to determine to which
                  MSA, if any, each provider belonged. We then matched the beneficiary
                  and provider MSA data back to the claims data so that each claim
                  record contained three geographic indicators: the MSA from which the
                  claim originated, the MSA to which the beneficiary belonged, and the
                  MSA to which the provider belonged.

                  Next we calculated the four characteristics we had identified as
                  representative of aberrant billing in South Florida for each MSA. We
                  calculated the percentage of the submitted amount that was for drugs
                  by dividing the amount submitted for drugs in each MSA by the total
                  amount submitted in that MSA. We calculated the mean submitted per
                  provider for beneficiaries with HIV/AIDS for each MSA by dividing the
                  total submitted for beneficiaries with HIV/AIDS by providers with at
                  least one claim referencing an HIV/AIDS diagnosis belonging to that
                  MSA by the number of such providers. We found the percentage of
                  beneficiaries with at least one drug claim in each MSA by dividing the
                  number of beneficiaries belonging to the MSA that had at least one drug
                  claim by the total number of beneficiaries belonging to that MSA.
                  Lastly, we calculated the mean amount submitted for drugs among
                  beneficiaries with at least one drug claim in each MSA by dividing the
                  total amount submitted for drugs for beneficiaries belonging to each
                  MSA by the number of beneficiaries belonging to the MSA that had at
                  least one drug claim. We calculated the same values for the entire
                  nation excluding South Florida using the same methodology. We
                  included all MSAs (or nonmetropolitan areas) that had at least two
                  characteristics that were at least twice the national level in Table 3.




OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   29
Δ   A P P E N D I X ~ B




OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   30
A   P   P E N D       I X ~    B         





    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   31
A   P   P E N D       I X ~    B         





    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   32
A   P   P E N D       I X ~    B         





    OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   33
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Timothy S. Brady,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office, and Deborah W. Harvey, Deputy Regional
                  Inspector General.

                  Scott Hutchison and Cindy Lemesh conducted this study. Central office
                  staff who contributed include Scott Manley, Linda Abbott, and Robert
                  Gibbons.




OEI-09-07-00030   ABERRANT BILLING   IN   SOUTH FLORIDA   FOR   BENEFICIARIES WITH HIV/AIDS   34
